UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3596
Aimee Johnson
Appellant
Brandon Jorgenson
v.

St. Louis County, Public Health & Human Services, et al.
Appellees

Appeal from U.S. District Court for the District of Minnesota
(0:19-cv-00111-SRN)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
October 01, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-3596

Page: 1

Date Filed: 10/01/2020 Entry ID: 4961400

®totteb Ii>tate3 Court of appeals
jFor tlje Cigfjtf) Circuit

* .

No. 19-3596
Aimee Johnson
Plaintiff- Appellant
Brandon Jorgenson
Plaintiff
v.

St. Louis County Public Health & Human Services; Sarah Anderson, Social
Worker; Hannah Jo Checketts, Social Worker; Kelly Jane Thompson, Social
Worker; Joan Mahle; Laura Yoki, Foster Parent; Lon Yoki, Foster Parent; Gayle
Koop, Foster Parent
Defendants - Appellees
Appeal from United States District Court
for the District of Minnesota
t

Submitted: August 17,2020
Filed: August 20,2020
[Unpublished]
Before ERICKSON, STRAS, and ROBES, Circuit Judges.

PER CURIAM.
Aimee Johnson appeals the district court’s1 dismissal, under Federal Rule of
Civil Procedure 12(b), of her pro se 42 U.S.C. § 1983 action. Having carefully
reviewed the record and the parties’ arguments on appeal, we find no basis for
reversal. See Montin v. Moore. 846 F.3d 289,292 (8th Cir. 2017) (de novo review
of Rule 12(b) dismissal). We deny Johnson’s motions to supplement the record, for
sanctions, and for oral argument.
The judgment is affirmed. See 8th Cir. R. 47B.

f

‘The Honorable Susan Richard Nelson, United States District Judge for the
District of Minnesota, adopting the report and recommendations of the Honorable
Leo I. Brisbois, United States Magistrate Judge for the District of Minnesota.
-2-

Case: Q:19-cv-00111 ^RN-LiB

Document #: 141-0

Date Filed: 1^ .4/2019

Page 1 of 1

UNITED STATES DISTRICT COURT
District of Minnesota

Aimee Johnson, Brandon Jorgenson

JUDGMENT IN A CIVIL CASE

Piaintiff(s),
Case Number: 19cvl 11 SRN/LIB

v,
St. Louis County Public Health & Human
Services,.SarahAnderson, Hannah Jo .. ..
Checketts, Kelly Jane Thompson, Joan Mahie,
Laura Yoki, Lon Yoki, Gail Koop
Defendants).

□ Jury Verdict. This action came before the Court for a trial by jury. The issues have been tried
and the jury has rendered its verdict.
B Decision by Court. This action came to trial or hearing before the Court. The issues have
been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED THAT:
1. Plaintiffs’ Objections [Doc. No. 124] to Magistrate Judge Brisbois’s Report and
Recommendation [Doc. No. 123] are OVERRULED:
2. The Report and Recommendation [Doc. No. 123] is AFFIRMED and ADOPTED;
3. Defendant Mahle’s Motion to Dismiss [Doc. No. 27], and Defendants St. Louis County,
Anderson, Checketts, and Thompson's Motion to Dismiss {Doc, NO. 59j, are oRATEi; «n
part and DENIED in part;
4. Defendants Lon Yoki, Laura Yoki, and Koop's Motion to Dismiss [Doc. No. 21] is DENIED
as moot;
5. Plaintiffs various motions [Doc. Nos. 82,98, 101,110, and 128] are DENIED without
prejudice as moot:
6. Plaintiffs Amended Complaint [Doc. No. 10] is DISMISSED in its entirety without
prejudice for lack of subject matter jurisdiction.
Date: 11/4/2019

KATE M. FOGARTY, CLERK
s/M. Giorgini
(By) M. Giorgini. Deputy Clerk

CASE 0:19-cv-0Glll-SRN-LIB Document 123 Filed 08/28/19 Page 1 of 15

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
File No. 19-cv-l 11 (SRN/LIB)

Aimee Johnson, ef aL,
Plaintiffs,

REPORT AND RECOMMENDATION

v.
St. Louis County Public Health & Human
Services, et aL,
Defendants.

This matter comes before the undersigned United States Magistrate Judge upon
Defendants Lon Yoki, Laura Yoki, and Gayle1 Koop’s Motion to Dismiss, [Docket No. 21];
Defendant Joan Mahie’s Motion to Dismiss, [Docket No. 27]; Defendants St. Louis County,
Sarah Anderson, Hannah Jo Cheeketts, and Kelly Jane Thompson’s Motion to Dismiss, [Docket
No. 59]; Plaintiffs’ Motion to tcVacate Termination of Parental Rights [and] Reinstate Parents
[sic] Rights ” [Docket No. 82]; Plaintiffs’ Motion to “Vacate Termination of Parental Rights,
Have Rights Reinstated, [and] Seek Relief From All Judgment Orders, [Docket No. 98],
Plaintiffs’ Motion to ‘Vacate Termination of Parental Rights Contract, Reinstates Parental
Rights, and Seek Relief From All Judgement Orders” and “Have Adoption Reversed,” [Docket
No'' 101}; and Plaintiffs’ Motion to “Grant Relief to Parents [and] Remove[] All Judgment
Orders.” [Docket No. 110]. Pursuant to a referral made in accordance with 28 U.S.C. § 636, the
parties’ Motions were referred to the undersigned by the Honorable Susan. Richard Nelson.
(Order of Referral [Docket No. 34]).

1 Plaintiffs identify this Defendant as “Gait Koop,” however, Defendant Koop has clarified the correct spelling of
her name as “Gayle." (Defs/ Mem., [Docket No. 23], at 1 n. I). Accordingly, the Court uses the corrected spelling.

S-C

CASE 0:19-cv-00111-SRN-UB Document 123 Filed 08/28/19 Page 2 of 15

For the reasons discussed herein, it,is recommended that the Defendants Lon Yoki. Laura
Yoki, and Gayle Koop’s Motion to Dismiss, [Docket No. 21], be DENIED as moot; Defendant
Joan Mahle’s Motion to Dismiss, [Docket No. 27], be GRANTED in part and DENIED in
part; Defendants St. Louis County, Sarah Anderson, Hannah Jo Checketts, and Kelly Jane
Thompson's Motion to Dismiss, [Docket No. 59], GRANTED in part and DENIED in part,
Plaintiffs5 Motion to “Vacate Termination of Parental Rights [and] Reinstate Parents [sic]
Rights,’5 [Docket No. 82], be DENIED as moot; Plaintiffs’ Motion to “Vacate Termination of
Parental Rights, Have Rights Reinstated, [and] Seek Relief From All Judgment Orders,” [Docket
No. 98], be DENIED as moot; Plaintiffs’ Motion to “Vacate Termination of Parental Rights
Contract, Reinstates Parental Rights, and Seek Relief From All Judgement Orders and Have
Adoption Reversed,” [Docket No. 101], be DENIED as moot; and Plaintiffs’ Motion to “Grant
Relief to Parents [and] Remove[] All Judgment Orders,” [Docket No. 110], be DENIED as
moot; and that the present action be DISMISSED in its entirety.
I.

Background2
The specific particularities of Plaintiffs’ Amended Complaint are far from clear,

however. Plaintiffs’ Amended Complaint, as well as other documents they have submitted in the
present case, challenge a prior Minnesota state courts proceeding in which their parental rights as
to their two children were terminated. (See, Amended Compl. [Docket No, 10]). A review of the
exhibits filed by Plaintiffs indicate that the underlying state court proceeding was Inre Matterof
Welfare of the Children of A inter Renee Johnson & Brandon John Jorgenson 69DU-JV-17-357
2 The facts in the present background are compiled from Plaintiffs Amended Complaint, [Docket No. 10], as weE
as, judicial records in the state court case implicitly referenced in Plaintiffs ’ Amended Complaint. Generally, in
evaluating a complaint, materials outside the pleadings cannot be considered on a motion to dismiss. Porous Media
Corp. v. Pall Carp- 186 ,F.3d 1077, 1079 (8th Or. 1999). However, a court “may consider the pleadings themselves,
material embraced by the pleadings, exhibits attached to the pleadings, and matters of public record” such as judicial
records. See, e.g.. Milts v. City of Grand Forks. 614 F.3d 495, 498 (8th Cir. 2010) (citing Porous Media Corp.,, 186
F.3d at 1079).

2

go

CASE 0;19~cv-00111-SRN-LiB Document 123 Filed 08/28/19 Page 3 of 15

(Si. Louis Cnty. Dist. Ct). /See. Exhibits,[Docket Nos. 4-2, 5, 5-1, 6-4, 8-1, 8-2, 8-3, 11, 11-1
11-3]};
In the underlying state court case, St. Louis County Public Health and Human Sendees
became involved with Plaintiffs in November of 2013, when Plaintiff Johnson reported that she
had “concerns” about Plaintiff Jorgenson abusing the children. In re Matter of Welfare of the
Children of Aimee Renee Johnson & Brandon John Jorgenson. 69DU-JV-17-357, Petition
Termination of Parental Rights (St. Louis Cnty. Dist. Ct. May 4, 2017)."’ After several more
reports of “concern” from third-parties and continued interaction with social services, Plaintiff
Johnson signed a “Voluntary Placement Agreement.” Id. at 13. The children were then placed in
foster care. Id. at 13.
While the children were in foster case, Plaintiffs expressed several concerns about the
level of care the children were receiving, as well as, concerns about Plaintiffs’ inability to
participate in welfare decisions regarding the children. (Id at 13-28). During that same time, the
social workers, as well as, the guardian ad litem assigned to the case expressed several concerns
regarding the level of care Plaintiffs had been providing the children and Plaintiffs interactions
with the children during visitations. (See. Id.).
On May 4, 2017, the St. Louis County Department of Public Health and Human Services
filed a Petition for the Termination of Parental Rights as to Plaintiffs and their two children. In re
Matter of Welfare of the Children nf Aimee Renee Johnson & Brandon John Jorgenson. 69DUJV-17-357, Petition Termination of Parental Rights (St. Louis Cnty. Dist Ct. May 4, 2017). On
3 As previously noted, a Court “may consider the pleadings themselves, material embraced by the pleadings, exhibits
attached to the pleadings;, and matters of public record,” such as judicial orders. See, e.g.. Mills v. City of Grand
Forks. 614 F.3d 495, 498 (8th. Cir. 2010) (citing Porous Media Corn.. 186 F.3d st 1079). Accordingly, die Court
may properly consider the materials filed in the underlying. case, even though they were submitted by Defendants in.
the present case, because those materials are either matters of public record, judicial orders, or embraced by
Plaintiffs: Amended Complaint

3 gC

CASE 0:19-cv-00111-SRN~UB Document 123 Filed 08/28/19 Page 4 of 15

January 16, 2018, Plaintiffs appeared, personally and through counsel at a trial on the County’s
Petition for die Termination of Parental Rights. In re Matter of Welfare of the Children of Aimee
Renee Johnson &. Brandon John Jorgenson. 69DU-JV-17-357, Order (St. Louis Cnty* Dist. Ct
Feb. 7, 2018). After the commencement of that trial, Plaintiffs “informed the Court that they
would enter a voluntary termination of parental rights'’ based on the advice of their counsel. id
at 3. The state court then “accepted the parents’ voluntary terminations on the record and signed
the appropriate papers.” Id,
However, soon thereafter Plaintiffs filed motions in state court seeking permission to
withdraw their consent to termination of parental rights. Id. On February 7, 2018, the state court
entered an Order denying Plaintiffs’ request to withdraw their voluntary termination of parental
rights. Id On February 16,2018, the state court entered an Order terminating Plaintiffs’ parental
rights as to the two children. Id Upon terminating Plaintiffs’ parental rights and awarding
guardianship of die children to the Minnesota Commissioner of Human Services for purposes of
adoptive placement, the state court “closed” the state court case. M.
On March 30,2018, Plaintiffs each filed, in state court, a motion to reconsider and reopen
the state court case in which their parental rights were terminated. In re Matter of Welfare of the
Children of Aimee Renee Johnson & Brandon John Jorgenson. 69DU-JV-I7-357. Order (St.
Louis Cnty. Dist Ct. April 9, 2018). Those motions to reopen ihe state court case were denied on
April 9,2018. Id Nevertheless, Plaintiffs .filed several more motions regarding requests to have
their parental rights reinstated; however, each-time the state court denied the request and
infonned Plaintiffs that the matter had been previously resolved. See, Id
Plaintiffs initiated the present action on January 15. 2019, by filing their Complaint,
[Docket No. 1], as well as, a litany of exhibits as attachments to their Complaint. (Exhibits

CASE 0:19-cv-OOlll-SRN-ttB Document 123

Filed 08/28/19 Page 5 of 15

Amended Complaint, [Docket No, 10], as well as,
[Docket Nos. 2-8). Plaintiffs filed their i
another score

of exhibits, [Docket No. 11], on January 23,2019..

tiffs named as Defendants the St. Louis County Health
In their Amended Complaint, Plain
“Hannah Jo Checketts
4 ‘Sarah Anderson (social worker)
and Human Services Department,
”, “Joan Mahle (Guardian ad litem)'’,
(social worker)’5, “Kelly Jane Thompson (social worker)
“Laura [and] Lon Yoki (foster parents)”; and Gayle

“Koop (foster parent)." (Amended CompL

limited exception of infonnatton identifying the parties, the entirety
[Docket No. 10]). With the
of Plaintiffs’ Amended Complaint states as follows:
Foster parent wrote untrue statementsreporting violated
would go to the Judge caused poor
riehts 4re violated as

nsidered for their best interest. Just alienated
Childrens wishes were never co
a close bond.
family from one another these boys did hav
Medication was not 9ven or broughtwhrch hadtt
<—- -

room to say bad words).
(Amended CompL, [Docket No. 10], at 4). In the

portion of the Amended Complaint entitled

“REQUEST FOR RELIEF ” Plaintiffs wrote as follows:
(,) Ask the court <0 reopen ft
Pa^l ngte
(2 ask the courts that pumtive dam^es be pad tonal
^ ^ ^ ^
SKSJ
Derided [sic] too for uhjusfly Severing a
family.

ma Defendant in the caption of the
Amended Complaint but they ihiiedto

ust u

DTcourtis required to liberally read pro sepieadmgssuchas fee

SsSSSSsss-''

Defendant.
S

CASE 0; 19-cv-OOlll-SRN-LIB Document 123 Filed 08/28/19 Page 6 of 15

Each Defendant responded to Plaintiffs’ Amended Complaint with a Motion to Dismiss,
[Docket Nos. 21, 27, 59], and Plaintiff s filed several Motions seeking relief similar to, if not
identical to, the relief sought in their Amended Complaint
II.

Analysis
Liberally construing Plaintiffs’ pleadings in their favor,5 Plaintiffs assert that during the

course of the state child custody proceedings and review, the Defendants made certain
misrepresentation to the Court regarding observations of Plaintiffs and their minor children
interacting which, according to Plaintiffs, resulted in the termination of Plaintiffs’ parental rights
as to their two children. (See, Amend CompL [Docket No. 10]). As relief, Plaintiffs now ask this
Federal Court to “reopen” the underlying state court case, to reinstate their parental rights as to
the two minor children, and to award “punitive damages” because the allegedly fraudulent
misrepresentation violated Plaintiffs’ “many right[s]. (Id. at 4).
In their Motion to Dismiss, [Docket No. 21], Defendants Lon Yoki, Laura Yoki, and
Gayle Koop argue that Plaiatifife’ Amended Complaint should be dismissed as to them because
Plaintiffs lack standing to pursue their current claims. (Defsf Mem. [Docket No. 23]). In the
alternative, Defendants Lon Yoki, Laura Yoki, and Gayle Koop argue Plaintiffs’ Amended
Complaint should be dismissed because Plaintiffs’ failed to state a claim upon which relief may
be granted and because these three Defendants are entitled to an “absolute judicial privilege.”

(MOIn her Motion to Dismiss, [Docket No. 27], Defendant Joan Mahle argues that Plaintiffs’
Amended Complaint should be dismissed with prejudice because she is protected by the doctrine
es as
of quasi-judicial immunity: because the Amended Complaint lacks any specific factual alleg­

not excused from foiling to comply

5 «

6

8C

CASE 0:19-cv-00111-SRN-LiB Document 123 Filed 08/28/19 Page 7 of 15

to her involvement; because the Rooker-Feldman6 doctrine deprives this Court of subject matter
jurisdiction; because, as an employee of the State of Minnesota, she is protected by the doctrine
of Eleventh Amendment immunity; and because she is entitled to qualified immunity, (Def. s
Mem., [Docket No. 30]).
Defendants St. Louis County, Sarah Anderson, Hannah Jo Checketts, and Kelly Jane
Thompson also responded to Plaintiffs’ Amended Complaint with their own Motion to Dismiss,
[Docket No. 59]. The County Defendants argue that Plaintiffs’ Amended Complaint should be
dismissed with prejudice because Plaintiffs lack standing to raise their present claims, because
Plaintiff failed to state a claim upon which relief may be granted: because they are protected by
the judicial privilege defense; and because the Rooker-Feldman doctrine deprives this Court of
subject matter jurisdiction.
Although all Defendants variously each raise several grounds as to. whether or not the
present action should be dismissed based on the merits of Plaintiffs’ Amended Complaint, this
Court must first address the issue of whether or not it has the requisite subject matter jurisdiction
necessary to adjudicate Plaintiffs’ claims. “If the court determines at any time that it lacks
subject-matter jurisdiction, the court must dismiss the action. Fed. R. Civ. P. 12(h)(3), see,
Ashcroft v. Iqbal 556 U.S. 662, 671 (2009) (“Subject-matter jurisdiction cannot be forfeited or
waived and should be considered when fairly in doubt, ); United States v, Mayo.Foundation, 729
F.3d 825, 828 (8th Cir. 2013) (acknowledging that the Court must address jurisdictional issues
first); Johnson v. City of Shorewood. Minn.. 360 F.3d 810, 818 (8th Cir. 2004) (stating that
because the Rooker-Feldman “doctrine is jurisdictional, it may be raised sua sponte”).

6 Rooker v. FUHirv Trust Co.. 263 U.S. 413, 416 (1923); D.C. Court of Appeals v: Feldman, 460 U.S. 462, 482
(1983).

7

CASE 0:19-cv-GQlll-SRN-UB Document 123 Filed 08/28/19 Page 8 of 15

“The ‘basic theory’ of the Rooker-Feidman doctrine is ‘that only the United States
Supreme Court has been given jurisdiction to review a state-court decision,’ so federal district
courts generally lack subject-matter jurisdiction over ‘attempted appeals from a state-court
judgment”’ Friends of Lake View Sch. Dist. Incorporation No. 25 of Phillips Ctv. V. Beebe, 578
F.3d 753, 758 (8th Cir. 2009) (citations omitted). Courts apply the doctrine to “cases brought by
state-court losers complaining of injuries caused by state-court judgments rendered before the
district court proceedings commenced and inviting district court review and rejection of those
[state] judgments.” Exxon Mobil Corn, v. Saudi Basic Indus, Corp., 544 U.S. 280,284 (2005).
A party who was unsuccessful in state court thus “is barred from seeking what in
substance would be appellate review of the state judgment in a United States District Court
based on the losing party’s claim that the state judgment itself violated fee loser s federal rights.
Johnston v. DeGrandy. 512 U.S. 997, 1005-1006 (1994) (citing D.C. Court of Appeals w
Ftdfiman 460 U.S. 462, 482 (1983); Rooker v. Fidelity Trust Co., 263 U.S. 413, 416 (1923)).
The Eighth Circuit Court of Appeals has noted that the Rooker-Feidman doctrine extends not
only to ‘straightforward appeals [of state court decisions] but also [to] more indirect attempts by
federal plaintiffs to undermine state court decisions.’” Ballinger v. Culotta. 322 F.3d 546, 54748 (8th Cir. 2003) (quoting Lemonds v. St. Louis County, 222 F.3d 488,492 (8th Cir. 2000)).
The doctrine deprives lower federal courts of jurisdiction over claims feat are also
“inextricable intertwined” with claims adjudicated in state court. Feldman, 460 U.S. at 482 n. 16.
“A general federal claim is inextricably intertwined with a state court judgment if the federal
claim succeeds only to fee extent feat fee state court wrongly decided the issue before it,’”
Lemonds v. St Louis County. 222 F.3d 488, 492 (8th Cir. 2000) (citing Pennzoil Co. v. Texaco,

8

CASE 0:19-cv-00111-SRN-LrB Document 123 Filed 08/28/i.;* Page 9 of 15

Inc.. 481 U.S. 1, 25 (1987)); see, Canal Capital Cor^ v. Valiev Pride Pack. Inc.. 169 F.3d 508,
512 (8th Cir. 1999).
Pro se complaints and pleadings are to
i be construed liberally. Solomon v. PStray, 795
F.3d 777, 787 (8th Cir. 2015). “{TJf the essence of an allegation is discernible ... then the district
court should construe the complaint in a way that permits the layperson’s claim to be considered
within the proper legal framework.” Id, (citing Stone v. Warrv 364 F.3d 912, 914 (8th Cir.
2004)). However, “[p]ro se litigants are not excused from complying with court orders or
substantive and procedural law.” Farnsworth v. City of Kansas Citv. Mo.. 863 F.2d 33, 34 (8th
Cir. 1988) (citing Bures v. Sissel. 745 F.2d 526,528 (8th Cir. 1984))
In the present case, all of Plaintiffs’ claims in their Amended Complaint Ml squarely
within and are

therefore barred by the Rooker-Feldman doctrine because their claims either

directly attack or are “inextricable intertwined” with the Order terminating their parental nghis
previously adjudicated in state court.
'

Plaintiffs here specifically ask this Court to “reopen” their state court case in which then-

parental rights were terminated, and for this proceeding to reinstate their parental nghts because
Plaintiffs believe the state court mishandled their state court case. (Amended CompL, [Docket
No. 10],

at 4). Plaintiffs have, however, already asked the state court to “reopen” then case and

“reinstate” their parental rights as to their two children, and the state court has repeatedly
declined to do so. Although Many of Plaintiffs submitted exhibits focus on perceived
in the documents Upon which the state court based its findings, it is the state
court’s ultimate decision to terminate Plaintiffs’ patents! rights which Plaintffi now attack here
in this Federal Court.

9 ^0

CASE 0:19-cv-00111-SRN-LIB Document 123 Filed 08/28/1^ Paige 10 of 15

Plaintiffs also seek an award of ‘‘punitive damages” for the “many rightfs] violated,
fraud, [and] misrepresentation which voids contract by law and ask [for] all additional relief to
which plaintiff are [entitled to] for unjustly severing a family.” (Amended CompL [Docket No.
10], at 4). Here again, Plaintiffs allude to perceived misrepresentations certain Defendants
allegedly made in documents upon which the state court based its various findings, and the relief
sought by Plaintiffs (punitive damages) is for the perceived act of “unjustly severing a family..
(Id.). While this is more indirect attack on the state court judgment, the claim for damages here
can only succeed if this Court were to now seek to overturn the state court judgment.
Although Plaintiffs purport to base their various attacks on the perceived
misrepresentations by Defendants in documents submitted to the state court and the “rightfs]
which those perceived misrepresentations “violated,” it is nonetheless the validity of the state
court Order which Plaintiffs attack here. Plaintiffs’ claims can only succeed, as noted, if this
Court were to find that the state court Wrongly decided and handled, the issue before it The
Court here could not grant Plaintiffs any form of requested relief without first invalidating the
state court orders and concluding that the state court wrongly decided the issue before it. In fact,
Plaintiffs spftr.ifir.allv ask this Court to do just that These are actions the Rooker-Feldman
doctrine states this Court cannot take.
Accordingly, even reading die Amended Complaint as a whole, construing it liberally,
and drawing all inferences in Plaintiffs’ favor, the Court finds that all of the Plaintiffs ciainis are
“inextricable intertwined” with the judgment m state court and their claims are therefore
jurisdictionally barred by the Rooker-Feldman doctrine. See, Lemonds v. St. Louis County, 222
F3d 488, 492 (8th Cir. 2000).7

7 The Court notes that even to the extent Plaintiffs' Amended Complaint could be liberally construed as raising a
separate state law defamation claim, based on the content of the Amended Complaint, (hare is no basis upon which
10

, :

CASE 0:19-cv~Q0111-SRN-LIB Document 123 piled 08/28/la Page 11 of 15

The undersigned further notes that were Plaintiffs’ claims not barred by the Rookery
Feldman doctrine, the undersigned would still recommend that Plaintiffs claims be dismissed as
all of Plaintiffs’ claims are precluded by the domestic relations exception.
“The domestic relations exception, first articulated in” Barber v. Barber, 62 U.S. 582
(1859), “divests the federal courts of jurisdiction over any action for which the subject is a
divorce, allowance of alimony, or child custody ” Kahn v. Kahn, 21 F.3d 859, 861 (8th Cir.
1994); see, Ankenhranrit v. Richards. 504 U.S. 689, 703 (1992).8 Even “when a cause of action
closely related to but does not precisely fit into the contours of an action for divorce, alimony, or
child custody, federal courts generally will abstain from exercising [domestic relations]
jurisdiction.” Id.
“[A] federal suit is ‘inextricably intertwined’ with a state domestic proceeding, thereby
depriving the federal court of subject matter jurisdiction, where the requested federal remedy
overlaps the remedy at issue in the state proceeding. Wallace v. Wallace. 736 F.36 764, 767
(8th Cir. 2013) (citing Rahn 21 F.3d at 861-62). “This occurs” under the domestic relations
exception “where the federal suit involves a remedy which is essentially domestici.e., “where,
in addressing the same conduct involved in a state domestic proceeding, the effect of a remedy in

this Court could alternatively exercise diversity jurisdiction pursuant to 28 U.S.C. § 1332(a). In their Amended
Complaint, Plaintiffs assert they are each citizens of Minnesota, and Defendants are each either citizens of
Minnesota; sued in their capacities as employees of a subdivision of die State of Minnesota; sued m their capacity as
an employee of the State of Minnesota; or in the case of the St. Louis County Health and Human Services, sued as a
department of a political subdivision of the State of Minnesota. Accordingly, even to the extent Plaintiffs’ Amended
Complaint could be broadly and liberally construed as raising an independent state law defamation claim, the Court
would still lack the subject matter jurisdiction necessary to adjudicate that claim because there is no diversity among
the parties.
8 Courts including the Eighth Circuit Court of Appeals, have applied the “domestic relations exception” to cases
based upon federal diversity jurisdiction, as well as, cases based upon federal question subject matter jurisdiction.
See. Sturgeon v. Benton. 242 F.3d 376 (8th Cir. 2000) (citing Kahn and the domestic relations exception as a baas
to hold that the “district court lack jurisdiction to hear” plaintiff s “civil rights action, in which he asserted toe
violations ofhis rights under 42 U.S.C. §§1983, 1985, and 19861 (unpublished); Harris v. Juvenile Court Saint Paa)
Minnesota No. 16-CV-4007 (DWF7BRT), 2017 WL 1102850, at *2 (D. Minn. Feb. 8, 2017), report , and
recommendation adopted. 2017 WL 1102689 (D. Minn. Mar. 23,2017).
11

CASE 0:19~cv-00111-SRN-LlB Document 123 Filed 08/28/id Page 12 of 15

the federal suit is to modify, nullify,, or predetermine the domestic ruling of the state
proceeding.” Id.
Plaintiffs’ present action fells squarely within the domestic relations exception. If this
federal court were to grant Plaintiffs the relief request here, that award would undermine the
domestic relations judgment of the state court regarding the custody and adoption of children.
Reopening the underlying state court case, reinstating Plaintiffs’ parental rights as to the two
minor children, and vacating an Order for adoption would require this Federal Court to vacate
the state court, judgment, as well as, at least, three other subsequent and directly related state
court Orders in the underlying state court case. These are actions this Federal Court cannot take.
See. Walkra V Wallace 736 F.36 764, 767 (8th Cir. 2013); Kahn v. Kahn. 21 F.3d 859, 861
(8th Cir. 1994).

Thus, the Court finds that Plaintiffs’ claims in their Amended Complaint are all also
jurisdictionally precluded by the domestic relations exception..

in.

Conclusion
Even reading the Amended Complaint as a whole, construing it liberally, and drawing all

inferences in Plaintiffs’ favor, the claims raised in Plaintiffs' Amended Complaint are barred by
the Rooker-Feiflman doctrine, and in the alternative. Plaintiffs’ claims are also fully precluded by
the domestic relations exception to this Court’s subject-matter jurisdiction.
As this Court’s lacks subject matter jurisdiction over the present action, the
recommended dismissals will be without prejudice. See, Jenkins v. Bowker. No. I9-cv-I051
(NEB/LIB), 2019 WL 2931581, at *2 (D. Minn. June 4, 2019), report and recommendation
adopted, 2019 WL 2921796 (D. Minn. July 8, ,2019).

12

CASE 0:19-cv-00 111-SRN-LIB Document 123 Filed 08/28/id Page 13 of 15

Defendant Joan Mahle’s Motion to Dismiss, [Docket No. 27], as well as, Defendants St.
Louis Count}?, Sarah Anderson, Hannah Jo Checketts, and Kelly Jane Thompson’s Motion to
Dismiss, [Docket No. 59], each further request the present action be dismissed with prejudice.
Because the Court lacks subject matter jurisdiction, it cannot dismiss the claims against diem
with res judicata effect Accordingly, the Court will recommend thatDefendant Mahle’s Motion,
and Defendants St. Louis County, Sarah Anderson, Hannah Jo Checketts, and Kelly Jane
Thompson’s Motion, be granted in part and denied in part. More precisely, it is recommended
the Motions to dismiss be granted, but that to the extent the Motions seek the present action be
dismissed with prejudice, they are denied.
Defendants Lon Yoki, Laura Yoki, and Gayle Koop’s Motion to Dismiss, [Docket No,
21], requests the present action be dismissed with prejudice based on the merits of Plaintiffs
claims. The Court, however, lacks the subject matter jurisdiction to adjudicate the merits of
Plaintiffs' claims or therefore dismiss the present action with prejudice. Accordingly, it will be
recommended that Defendants Lon Yoki, Lama Yoki, and Gayle Koop’s Motion be denied as
moot, and that the Plaintiffs’ Haims here be dismissed without prejudice for lack of subject
matter jurisdiction.
Plaintiffs also brought a Motion to “Vacate Termination of Parental Rights [and]
Reinstate Parents [sic] Rights,” [Docket No. 82]; a Motion to “Vacate Termination of Parental
Rights Have Rights Reinstated, [and] Seek Relief From Ail Judgment Orders,” [Docket No. 98];
a Motion to “Vacate Termination of Parental Rights Contract, Reinstates Parental Rights, and
Seek Relief From All Judgement Orders” and “Have Adoption Reversed,” [Docket No. 101];
and a Motion to “Grant Relief to Parents [and] RemoveQ All Judgment Orders,” [Docket No.
110}. Each of Plaintiffs’ pending Motions seeks ostensibly identical relief as that sought in their

13

' \

CASE 0:19-cv-00111-SRN-UB Document 123 Filed 08/28/la Page 14 of 15

Amended Complaint and are based on the same allegations raised in die Amended Complaint
Accordingly, in light of the Court’s previous_ determination that it lacks subject matter
jurisdiction to. hear any part of this case, it will recommend that all of Plaintiffs’ Motions be
denied without prejudice as moot.
Therefore, based on the foregoing reasons, all the files, records, and proceedings herein,
IT IS HEREBY RECOMMENDED THAT:
1. Defendants Lon Yoki, Laura Yoki, and Gayle Koop’s Motion to Dismiss, [Docket No.
21], be DENIED without prejudice as moot;
2. Defendant Joan Mahle’s Motion to Dismiss, [Docket No, 27], be GRANTED in part
and DENIED in part:
3. Defendants St. Louis County, Sarah Anderson, Hannah Jo Checketts, and Kelly Jane
Thompson’s Motion to Dismiss, [Docket No. 59], be GRANTED in part and DENIED
in part;
4 . Plaintiffs’ Motion to “Vacate Temiination of Parental Rights [and] Reinstate Parents [sic]
Rights.” [Docket No. 82], be DENIED without prejudice as moot;
5. Plaintiffs’ Motion to ‘Vacate Temiination of Parental Rights, Have Rights Reinstated,
[and] Seek Relief From All Judgment Orders,” [Docket No. 98], be DENIED without
prejudice as moot
6. Plaintiffs’ Motion to ‘Vacate Termination of Parental Rights Contract, Reinstates
Parental Rights, and Seek Relief From Ail Judgement Orders” and “Have Adoption
Reversed,” [Docket No. 101], be DENIED without prejudice as moot;
7. Plaintiffs’ Motion to “Grant Relief to Parents [and] Remove]] All Judgment Orders,”
[Docket No. 110], be DENIED without prejudice as moot; and

14

CASE 0:19-cv-OGlll-SRN-Ll B Document 123 Filed 08/28/la Page 15 of 15

8. The present action be DISMISSED in its entirety without prejudice.

s/Leo I. Brisbois
Hon, Leo I. Brisbois
U.S. MAGISTRATE JUDGE

Dated: August 28,2019

NOTICE
Filing Objections: This Report and Recommendation is not an order or judgment of-the District
Court and is therefore not appealable directly to the Eighth Circuit Court of Appeals.
Under Local Rule 72.2(b)(1), “A party may .file and serve specific written objections to a
magistrate judge’s proposed findings and recommendation within 14 days after being served
with a copy of the recommended disposition!)]” A party may respond to those objections within
14 days after being served a copy of the objections. LR 72.2(b)(2). All objections and responses
must comply with die word or line limits set forth in LR 72.2(c).

15

—'V

Case: 0:19-cv-00ill-SKN-L!3

Document#: 140-0

Date Filed: ll/u-,2019

Page 1 of 12

IGNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Case No. 19-cv-lll (SRN/OB)
Afmee Johnson and Brandon Jorgenson,
P’rlntiff,
ORDER ON OBJECTIONS TO
REPORT AND RECOMMENDATION

v.
St Louis County Public Health & Human
Services et aL,
Defendants.

Aimee Johnson and Brandon Jorgenson, Pro Se Plaintiffs.
Nora C. Sandstad, St. Louis County Attorney’s Office, 100 North 5th Avenue West, #501,
Duluth, MN 55802, for Defendants St Louis County Public Health & Human Services,
Sarah Anderson, Hannah Jo Checketts, and Kelly Jane Thompson.
Kathryn Iverson Landrum, Minnesota Attorney General’s Office, 445 Minnesota Street
Suite 1100, Saint Paul, MN 55101, for Defendant Joan Mahle.
Mark A. Solheim and Pat O’Neill, HI, Larson King, LLP 30 East 7th Street Suite 2800,
Saint Paul, MN 55101, for Defendants Laura Yoki, Lon Yoki, and Gayle Koop.

SUSAN RICHARD NELSON, United States District Judge
Before the Court are Plaintiffs’ Objections (“Objections”) [Doc. No. 124] to the
August 28,2019 Report and Recommendation (“R&R”) [Doc. No. 123] filed by Magistrate
Judge Leo I. Brisbois. For the reasons set forth below, Plaintiff;’ Objections are overruled,
die magistrate judge’s R&R is affirmed and adopted in full, and Plaintiff’s Amended
Complaint [Doc. No. 10] is DISMISSED in its entirety without prejudice.

q-t*

Case: 0:19-cv-00ill-5>rtN-UB

L

BACKGROUND

Document #: 140-0

Date Filed: 1L -x/2019

Page 2 of 12

i

Plaintifis Aimee Johnson and Brandon Jorgenson seek reinstatement of their
parental rights over their two minor children as well as punitive damages fortpurported
fraud, misrepresentations, and violations of their constitutional rights that allegedly
occurred during or in relation to a Minnesota state court proceeding in which Plaintiffs
parental rights were terminated. (Id at 4.) As the magistrate judge noted, the details of
Plaintiffs’ complaint are less than dear. However, the exhibits attached to or necessarily
embraced by the pleadings, as well as public records,1 demonstrate that die underlying
proceeding at issue was entitled In the Matter ofthe Welfare ofthe Children ofAimee Renee
Johnson & Brandon John Jorgenson (“Ire re the Welfare of Children of Johnson &
Jorgenson”), Case Nos. 69DU-JV-16-519 & 69DU-JV-17-357 (Qy. of St Louis Dist Ct);
(See Solheim Decl. Ex. 1 [Doc. No. 24-1].)
The magistrate judge’s R&R accurately summarizes the procedural and factual
history of die underlying state case. (See R&R [Doc. No. 123] at 3—4.) Accordingly, the
Court only briefly discusses that background here. In late 2013, St Louis County Public

1
The Court looks to die material embraced by die complaint, including matters of
public record, and the exhibits attached to the pleadings and motions to dismiss, in order
to understand the factual underpinnings of the case. See Mattes v. ABC Plastics, Inc., 323
F.3d 695,697 n.4 (8th Cir. 2003) (“fl]n considering a motion to dismiss, the district court
may sometimes consider materials outside die pleadings, such as materials that are
necessarily embraced by the pleadings and exhibits attached to die complaint (citation
omitted)): see also Kushner v. Beverly Enters., Inc., 317 F.3d 820, 831 (8th Cir. 2003)
(‘‘When deciding a motion to dismiss, a court may consider the complaint and documents
whose contents are alleged in a complaint and whose authenticity no party questions, but
which are not physically attached to the pleading.” (citation omitted) (internal quotation
marks omitted)).

2

0}O

Document #: 140-0

Case: 0:19-cv-00111-SKM-LiB

Date Filed: 11/^2019

Page 3 of 12

Health and Human Services began investigating Plaintiff Jorgenson after Plaintiff Johnson
reported that she bad concerns that he was abusing their two children. See Petition tor
— 1

1

....

*'

Termination of Parental Rights, In re the Welfare of Children of Johnson & J&rgenson,
Case No. 69DU-JV-17-357 (Cty. Of St Louis DisL Ct May 4, 2017). Eventually, after
additional investigation, the children were placed in foster care. Id.
On May 4, 2017, the St. Louis County Department of Public Health and Human
Services filed a Petition for the Termination of Parental Rights as to Plaintiffs and their
two children. See id; (see also Landrum Beet. Ex. B [Doc. No. 31-1] at 12 (full copy of
the petition for termination of parental rights).) On January 16,2018, the case wait to trial;
both Plaintiffs were present and represented. Sec Findings of Fact, Conclusions of Law,
and Order for Termination of Parental Rights at 1, In re the Welfare ofChildren ofJohnson
& Jorgenson, Case Nos. 69DU-JV-16-519 & 69DU-JV-17-357 (Cty. Of St. Louis Dist Ct.
Feb. 16, 2018).

Aft®: morning testimony, Plaintiffs met with their attorneys and

subsequently informed the district court that they wished to voluntarily temmgteto
^

parental rights. (Id at 1-2.) The district court accepted Plaintiffs’ voluntary consents to
termination, awarded guardianship of the two children to the Minnesota Commissioner of
Human Services, and closed the state court case. (Mat 1-2.) Shortly thereafter, Plaintiffs
moved to withdraw their respective consents to termination; the district court denied those
motions on February 7,2018. (Id)
On March 30, 2018, Plaintiffs filed a Motion to Reconsider and Reopen their
parental rights termination case. See Ord®: at 1, In re the Welfare of Children ofJohnson
£ Jorgenson, Case Nos. 69DU-JV-16-519 & 69DU-JV-17-357 (Cty. Of St Louis Dist Ct

3cf 6

VD

Case: 0:19-cv-00111-SRN-LfB

Document#: 140-0

Date Filed: 11A31/2G19

Page 4 of 12

Apr, 9. 2018). The district court denied that motion, noting that Plaintiffs had failed to
appeal the termination oftheir parental rights in a timely manner and that they had provided
<*r

no new information that would otherwise permit the district court to relieve them from the
prior order. (Mat 1-2.)
Plaintiffs commenced this suit on January 15, 2019 (see CompL [Doc. No. 1],)
seeking vacation of the state court’s order terminating their parental rights, as weE as
punitive damages stemming from purportedly false statements and violations of their
constitutional rights made during the underlying proceeding, (see Am. CompL [Doc. No.
10] at 6.) Plaintiffs also filed a lengthy catalogue of exhibits in support of their claims.
Defendants—St Louis County’s Public Health and Human Services Department, several
social workers, the children’s guardian ad Etem, and the Plaintiffs children s foster
parents—filed motions to dismiss Plaintiffs’ amended complaint on various grounds. (See,
e.g., Doc. Nos. 21,27, and 59.) In response, Plaintiffs filed numerous motions generally
aimed at either opposing the Defendants’ motions to dismiss or at vacating the state court s
termination of their parental rights. (See, e.g.. Doc. Nos. 82,98,101, and 110.)
The magistrate judge took the various motions (Doc. Nos. 21, 27, 59, 82, 98, 101,
and 110) under advisement without a hearing. (See Min. Entry [Doc. No. 81] (noting that
Doe. Nos. 21,27, and 59 would be taken under advisement); Order re: Motions [Doc. No.
112] at 2-3 (noting that Doc. Nos. 82, 98, 101, and 110 would be considered at the same
time as the other motions, and barring submission of any other motions until the pending
motions were decided).)

S'

4 OU

Case: 0:19-cv-00111-bKN-LIB

Document #: 140-0

Date Filed; 11/wjJ2019

Page 5 of 12

On August 28,2019, the magistrate judge filed his R&R. (See R&R [Doc. No. 123].)
He recommended that the Court find that it lacks subject matter jurisdiction over Plaintiffs’
case under the Rooker-Feldman doctrine, or in the alternative, the domestic-relations

exception to federal subject matter jurisdiction.

(See R&R [Doc. No. 123] at 12.)

Accordingly, the magistrate judge recommended granting m part Defendant Joan Mahle’s
Motion to Dismiss [Doc. No. 27] and Defendants St Louis County, Sarah Anderson, Hannah
Jo Checketts, and Kelly Jane Thompson’s Motion to Dismiss [Doc. No. 59] and dismissing
Plaintiffs’ rfoh™ without prejudice, but denying in part each motion to the extent they seek
dismissal withprejudice because absent subject matter jurisdiction, dismissal cannot be given
res judicata effect. (R&R [Doc. No. 123] at 13.) Judge Brisbois also recommended that
Defendants Lon Yoki, Laura Yoki,: and Gayle Koop’s Motion to Dismiss [Doc. No. 21] be
deniedasmoot (R&R [Doc. No. 12} at 13.) Finally, with respect to Plaintiffs’ motions [Doc.
Nos. 82,98,101, and 110], the magistrate judge recommended that each be denied without
prejudice as moot in light of his recommendation on Defendants’ Motions to Dismiss [Doc.
Nos. 27 and 59].
On September 11,2019, Plaintiffs filed Objections to the magistratejudge’s report and
recommendation, claiming, among other things: (1) that they had been ‘tricked” in the
underlying state proceeding; (2) that social workers made untrue sta

to the district

court in that proceeding; (3) that this Court possesses diversity jurisdiction; (4) their due
prone?? rights were violated during, and in relation to, the state court proceeding; and (5) the
mootness doctrine is inapplicable. (See generally Objections [Doc. No. 124].) Plaintiffs ask
the Court to “hear this case and to overturn the state [cjourt’s ruling [terminating their parental
5

Cl c

Case: 0:19-cv-00111-SRN-LlB

Document #: 140-0

Date Filed: 11/01/2019

Page 6 of 12

rights] for not following the law.” (Id. at 5.) Plaintiffs briefly reference the Rooker-Feldman
doctrine, but do not appear to have advanced an argument regarding its applicability except
to say that a “ffjederal claim is inextricably intertwined with the state court judgment if the
federal claim succeeds only to the extent [t]hat the state court wrongly decided the issue
before it’5 (Id. at 3-4.) Defendants have filed responses to Plaintiff Objections that in
general, argue that this Court should adopt the magistrate judge’s recommendations in Ml.
(See Defendants Responses to PL’s Objections [Doc. Nos. 133, 135, and 136].)
The same day that Plaintiffs filed their Objections to the magistrate judge’s R&R,
Plaintiff Johnson also filed a one-page Motion to Reinstate Parental Rights. (See Mot. to
Reinstate Parental Rights [Doc. No. 128].) The Motion—which asks the Court to “overturn
state courts decision & Reinstate parental rights (sic) to both children’ (id at 1) has not
been addressed by the magistrate judge. However, because it is entirely duplicative of
Plaintiffs' prior motions, the Court will address it in this order alongside Plaintiffs
Objections to the magistrate judge’s R&R.
n.

DISCUSSION
The Court undertakes an independent, de novo review of an R&R to which a party

objects and “may accept, reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate judge.” 28 U.S.C. § 636(b)(1) (2012); see also
D. Minn L.R. 72.2(bX3). The magistrate judgejecommended dismissaR^BamtiffiP
complaint based on the Rooker-Feldman doctrine, and the domestic relationsexception to
federal subject matter jurisdiction. The Court addresses each basis in turn.

« <30 '

Case: 0:19-cv-00111-bRN-UB

A.

Document #: 140-0

Date Rled: ll/ui/2019

Page 7 of 12

The Rooker-Feldman Doctrine

The Court is obligated to question its subject xnatterjurisdiction before proceeding
>

to the merits ofthe Plaintiffe’ case. See Kokkanen v. Guardian Life Ins. Co., 511 U.S. 375,
377 (1990). One limit on the Court’s subject matter jurisdiction is a legal principle known
as the Rooker-Feldman doctrine, based on Rooker v. Fidelity Trust Co., 263 U.S. 413
(1923) md District of Columbia Court ofAppeals v. Feldman, 460 U.S. 462 (1983). The
principle recognizes the contours of state and federal jurisdiction underlying our federalism
system by prohibiting “lower federal courts from exercising jurisdiction over actions
seeking review of, or relief from, state court judgments.” Webb as nextfriend ofK. S. v.
Smith, 936 F.3d 808, 816 (8th Cir. 2019) (citing Hageman v. Barton, 817 F.3d 611, 614
(8th Cir. 2016) (internal quotation marks omitted).2 Put another way, a party who loses in
state court “is barred from seeking what in substance would be appellate review ofthe state
judgment in a United States district court, based on the losing party’s claim that the state
judgment itself violates fee loser’s federal rights.” Johnson v. De Grandy, 512 U.S. 997,
1005-1006 (1994) (citing Feldman, 460 U.S, at 482; Rooker, 263 U.S. at 416).
The doctrine also deprives lower federal courts ofjurisdiction “over claims feat are
‘inextricably intertwined’ wife claims adjudicated in state court.” Fielder v. Credit
Acceptance Corp., 188 F.3d 1031,1034 (citing Feldman, 460 U.S. at 482 n.16). Claims

2
The doctrine also reflects fee feet feat only fee United States Supreme Court may
review decisions of a state court on their merits, and even then only after fee appropriate
appellate process has been followed. See 28 U.S.C. § 1257 (2012) {"Final jud^ients or
decrees rendered by fee highest court of a State in which a decision couidbe hadQ may be
reviewed by the Supreme Court by writ of eertioian[.] )

7 eiC,

Case: 0:19~cv-00111-SRN-LIB

Document #: 140-0

Date Fifed: 11W2019

Page 8 of 12

are “inextricably intertwined” with state court judgments for Rooker-Feldman purposes it
the claims succeed “ ‘only to the extent that the state court wrongly decided die issues
before it [or] ifthe relief requested... would effectively reverse the state court d&cision or
void its ruling.

> 99

Id at 1034-35 (quoting Charchenko v. City ofStillwater, 47 F.3d 981,

983 (8th Cir. 1995)).
While an important limit on federal courts’ subject matter jurisdiction, the RookerFeldman doctrine is not without its own boundaries. The Supreme Court has “cautioned
lower courts not to take a broad view of Rooker-Feldmanf and has expressly limited its
application to “ ‘cases brought by state-court losers complaining ofinjuries caused by statecourt judgments rendered before the [federal] district court proceedings commenced and
inviting district court review and rejection of those judgments.

* 99

Webb, 936 F.3d at 816

(quoting Exxon Mobil Corp., 544 U.S. at 284); see also Skinner v. Switzer, 562 U.S. 521,
531 (2011) (reiterating the same). Accordingly, the doctrine does not apply where a state
court has not issued any final judgments on the merits. See Webb, 936 F.3d at 816—17.
Similarly, the doctrine is inapplicable where the federal proceeding alleges a prior injury
that a state court foiled to remedy, rather than an injury stemming from the state court
judgment itself. Id at817 (citing

7, Ltd. v.DAC Techs. ofArkJnc.,4%1 F.3d 1154,

1157 (8th Cir. 2007)); see also Riehm v. Engelking, 538 F.3d 952, 965 (8th Cir. 2008)
(noting the distinction between an injury stemming from a state-court judgment and an
Injury from some other illegal act or omission; the former is barred, while the latter is not).
Along those lines, the doctrine permits claims that are “ ‘separate from and collateral to the

8

Case: 0:19-cv-00111-SRN-LIB

Document #: 140-0

merits of the state-court judgment

1 >5

Date Filed: H/ujl/2019

Page 9 of 12

Fielder, 188 F3d at 1034 (quoting Pennzoii Co. v.

Texaco, Inc., 481 U.S. 1,21 (1987) (Brennan, J., concurring)).
Here, Plaintiffs’ case fells squarely within—-and is therefore prohibited^—the
Rooker-Feldman doctrine’s jurisdictional bar. Plaintiffs’ amended complaint asks this
Court for only two things: (I) for the Court to “reopen & have parental rights (sic)
reinstated to plaintiffs”; and (2) for “punitive damages to be paid to plaintiff; for many
rightfs] violated, fraud, misrepresentation which voids contract by law, and ask all
additional relief to which piain[t]ififs are [entitled too for unjustly severing a family (sic).”
(Am. Comp. [Doc. No. 10] at 6.) Plaintiffs directly request that this Court undo a state
court dftriisirtp and affirmatively reinstate Plaintiffs’ parental rights over their children.
Such a request can only be construed as asking for relief directly from a state court
judgment To grant Plaintiffs’ relief on their complaint would require the Court to review
the factual and legal basis for the Minnesota district court’s final order terminating
Plaintiff;’ parental rights, essentially cloaking the Court in fee garb of an appellate tribunal
Yet this is precisely what fee Rooker-Feldman doctrine prohibits. See Johnson, 512 U.S.
at 1005-1006 (citations omitted).
Plaintiffs’ request for punitive damages does not change this result Plaintiffs’
damages request stems from perceived dishonesty and fraud feat occurred in the documents
provided to fee state court during fee underlying proceeding, and from fee perceived
“unjustQ severance of] a family.” (Am. Compl. [Doc. No. 10] at 6.) Awarding damages
for such claims would require fee Court to determine that fee state court

wrongly decided

the issues before it [or]... effectively reverse fee state court decision or void its ruling’ ”,
9

Case: Q:19-cv-00111-br*N-LiB

Document#: 140-0

Date Fried: ll/ui/2019

Page 10 of 12

thereby rendering Plaintiffs* damages claims “inextricably intertwined” with die state court
judgment for Rooker-Feldman purposes. See Fielder, 188 F.3d at 1034-35 (quoting
Charchenko, 47 F.3d at 983). Accordingly, under either form of relief sought, Plaintiffs’
claims are jurisdictionally barred.
B.

The Domestic Relations Exception

Apart from and in addition to the Rooker-Feldman doctrine, a legal principle known
as the domestic relations exception to federal jurisdiction also stands as an independent bar
to federal subject matter jurisdiction over this case. First articulated in Barber v. Barber,
62 U.S. 582 (1859), the domestic relations exception divests federal courts of jurisdiction
over any matter pertaining to divorce, alimony, and child custody. Kahn v. Kahn, 21 F.3d
859, 861 (8th Cir. 1994). Moreover, federal courts will also generally abstain from
exercising jurisdiction over cases closely related to divorce, alimony, or child custody, even
where the case does not fit squarely “into the contours of an action for divorce, alimony,
or child custody.” Id. To that end, federal courts are divested of jurisdiction when the
federal proceeding is “inextricably intertwined” with state domestic proceedings such that
die requested federal remedy overlaps with the remedy at issue in the state court
proceedings, which occurs when, “in addressing the same conduct involved in a state
domestic proceeding,” the remedy offered by a federal court would effectively modify,
nullify, or predetermine die ruling in the "state proceeding. Wallace v. Wallace, 736 F.36
764,767 (8th Cir. 2013).
The Supreme Court has explicitly held that die domestic relations exception “divests
the federal courts of power to issue divorce, alimony, and child custody decrees*■ even
10

Case: 0:19-cv-001U-SkN-UB

Document #: 140-0

Date Fifed: ll/bi/2019

Page 11 of 12

where the claimed subject matter jurisdiction stems from the diversity of the parties.
Ankenbrandl v. Richards. 504 U.S. 689,703 (1992) (emphasis added). In discussing that
holding, die Court noted that “sound policy considerations” counsel leaving such matters
to state courts that are “eminently more suited to work of this type than are federal courts.
Id. at 703-704. Indeed, state courts’ “close association with state and local government
organizations dedicated to handling issues that arise out of conflicts over divorce, alimony,
and child custody decrees” and “as a matter of judicial expertise... [their] special
proficiency developed... over die past century and a half in handling issues that arise in
the granting of such decrees” render them the ideal jurisdictional venue for such cases. Id.
at 704 (citing Lloyd v. Loeffler, 694 F.2d 489,492 (7th Cir. 1982)).
Here, Plaintiffs ask this Court to do what the domestic relations exception expressly
precludes: vacate a state court judgment relating to child custody and reinstate their own
parental rights. (Am. CompL [Doc. No. 10] at 6.) Granting Plaintiffr’ request would run
directly afoul of the Supreme Court’s holding in Ankenbrandt. Sec 504 U.S. at 703.
Accordingly, Plaintiffs’ claims are also barred by the domestic relations exception.
C.

Disposition of the Case

The Court lacks subject matter jurisdiction over Plaintiffs’ case under both the
Rooker-Feldman doctrine mid domestic relations exception. While the Court understands
that Plaintiffs me frustrated by the underlying state court decision, the lower federal
courts—like this one—are simply not the appropriate forum in which to challenge that
decision. Accordingly, the Court dismisses Plaintiffs’ claims without prejudice. See
Romero v. Pinnacle Equities„ LLC, 283 F.3d Fed. App’x 429, 431 (8th Cir. 2008)
11

^ r

°\C~

Case: 0:19-cv-00111-SKN-LiB

Document#: 140-0

Date Filed: ll/tii/2019

Page 12 of 12

(modifying dismissal to be without prejudice where basis for dismissal was lack of subject
matter jurisdiction).
III.

CONCLUSION

Based on the submission and foe entire file and proceedings herein, IT IS HEREBY
ORDERED THAT:
1. Plaintiffs’ Objections [Doc. No. 124] to Magistrate Judge Brisbois’s Report and
Recommendation [Doc. No. 123] are OVERRULED;
2. The Report and Recommendation [Doc. No. 123] is AFFIRMED and ADOPTED;
3. Defendant Mahle’s Motion to Dismiss [Doc. No. 27], and Defendants St. Louis
County, Anderson, Checketts, and Thompson’s Motion to Dismiss [Doc. NO. 59],
are GRANTED in part and DENIED in part;
4. Defendants Lon Yoki, Laura Yoki, and Koop’s Motion to Dismiss [Doc. No. 21] is
DENIED as moot;
5. Plaintiffs various motions [Doc. Nos. 82, 98, 101, 110, and 128] are DENIED
without prejudice as moot;
6. Plaintiffs Amended Complaint [Doc. No. 10] is DISMISSED In its entirety
without prejudice for lack of subject matter jurisdiction.

LET JUDGMENT BE ENTERED ACCORDINGLY.

s/Susaa Richard Nelson_____
SUSAN RICHARD NELSON
United States District Judge

Dated: November 1,2019

12

Additional material
from this filing is
available in the
Clerk's Office.

